JULY 6, 2010
  AUDIT REPORT




                                                      OFFICE OF AUDITS




         NASA’S ASTRONAUT CORPS: STATUS OF
           CORRECTIVE ACTIONS RELATED TO
              HEALTH CARE ACTIVITIES




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-10-016 (ASSIGNMENT NO. A-09-005-01)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

BHP          Behavioral Health and Performance
GSA          General Services Administration
ISS          International Space Station
NODIS        NASA Online Directives Information System
NPR          NASA Procedural Requirements


                                                         REPORT NO. IG-10-016
JULY 6, 2010




                                                                             OVERVIEW

       NASA’S ASTRONAUT CORPS: STATUS OF CORRECTIVE
         ACTIONS RELATED TO HEALTH CARE ACTIVITIES

                                                                              The Issue

  NASA has established rigorous medical standards for the selection of new astronauts,
  space mission assignments, and medical and behavioral health to ensure that astronauts
  can adequately carry out missions in space. As of April 2010, NASA had 83 astronauts
  eligible to be assigned to a space mission and 9 astronaut candidates in training to
  become eligible for a mission. Prior to going into space, astronauts receive an average
  6 years of training for a Space Shuttle mission and an average 8 years of training for an
  International Space Station (ISS) mission. The Astronaut Corps is supported by
  21 medical and aerospace physicians, 2 psychiatrists, and 3 psychologists who provide
  routine health care, annual physical and behavioral health examinations, and support
  during training exercises and space flight missions.

  The arrest of a NASA astronaut in February 2007 for personal actions that were the
  subject of criminal charges led to a number of internal and external reviews related to
  health care services provided to members of the Astronaut Corps. The first review,
  performed by Johnson Space Center (Johnson review) between February and June 2007,
  focused on Johnson’s practice of behavioral medicine and included recommendations to
  improve Johnson’s behavioral health care services for NASA astronauts.

  A committee of Federal behavioral health care and aerospace medicine specialists
  commissioned by the NASA Administrator performed the second review, which focused
  on Johnson’s overall astronaut health care program. That committee issued a report in
  July 2007 (Committee review) with recommendations to improve medical and behavioral
  health care provided to astronauts and their dependents, communication and coordination
  between NASA’s medical providers and the behavioral health providers, and
  Astronaut Office operations.

  A third review by NASA’s Office of Safety and Mission Assurance (Safety and Mission
  Assurance review) in July 2007 focused on allegations of alcohol misuse by astronauts.
  The Office of Safety and Mission Assurance issued a report in August 2007 concluding
  that allegations of alcohol impairment or misuse by NASA astronauts were not
  substantiated; however, the report contained recommendations pertaining to alcohol
  policies within the Astronaut Corps and at the Centers as well as suggested revisions to
  the disciplinary policy for the ISS code of conduct.




REPORT NO. IG-10-016
                                                                                         OVERVIEW



     We conducted this audit to assess NASA’s actions to implement the recommendations
     contained in these three reviews to improve the medical and behavioral health care
     provided to the Astronaut Corps. We assessed whether NASA Headquarters and Johnson
     had taken corrective actions that (1) met the intent of the recommendations in the reviews
     and (2) whether the actions were implemented. We did not, however, test the
     effectiveness of NASA’s implementation efforts nor did we validate the reviewers’
     findings. See Appendix A for details of the audit’s scope and methodology.

     Results

     We determined that NASA had taken steps to implement 36 of the 39 recommendations
     contained in the three reviews. We also found that NASA had not completed or taken
     action on 2 recommendations because no NASA official had been assigned responsibility
     to address one of the issues and because the program addressed in the other
     recommendation had been suspended. Finally, NASA was unable to take action on
     1 recommendation because the recommendation requires determining whether changes to
     the astronaut selection process were useful, which cannot be done yet.

     NASA Took Actions to Address 36 Recommendations. We determined that all 3 of
     the recommendations from the Johnson review were addressed, all but 2 of the
     30 recommendations from the Committee review were addressed, and 5 of the 6
     recommendations from the Safety and Mission Assurance review were addressed.

     The three recommendations in the Johnson review sought to improve the behavioral
     health care provided to astronauts and astronaut candidates. We found that NASA
     officials took actions that met the intent of the three recommendations. Specifically, the
     Johnson Space Medicine Division Chief issued new guidance (SD-09-021, “Annual
     Astronaut Behavioral Health Exam,” March 23, 2009) to address the recommendation
     that a 30-minute behavioral health assessment be conducted in conjunction with annual
     medical flight physicals and the recommendation that behavioral medicine flight
     assessments be performed on Shuttle crewmembers. The guidance includes a
     requirement for the behavioral health providers to institute annual behavioral wellness
     evaluations for all astronauts regardless of flying status and a requirement for a
     psychiatrist to determine whether the astronaut is qualified for active flying status. In
     addition, NASA organized a working group that made recommendations to improve the
     astronaut selection process to address a recommendation that NASA enhance the
     assessment of an astronaut’s fitness for flying duty.

     Further, we determined that NASA took actions to meet the intent of 28 of the
     30 recommendations issued by the Committee commissioned by the NASA
     Administrator. Specifically, NASA established or revised 21 policies and procedures to
     address 14 Committee recommendations related to Privacy Act information, alcohol
     misuse, behavioral health care, independent reviews of the behavioral health clinic,
     medical records, credentials, standard operating procedures for the behavioral health
     clinic, attendance and structure of the Aerospace Medicine Board, an Astronaut Code of


ii                                                                          REPORT NO. IG-10-016
OVERVIEW



  Professional Responsibility, and astronaut performance evaluations. NASA took
  additional actions to address 8 other Committee recommendations related to the
  psychological evaluation of applicants to the Astronaut Corps, medical testing of the
  Astronaut Corps, reporting safety concerns, continuity of health care, privacy of medical
  information, supervisory training, and surveying the Astronaut Corps regarding issues
  identified by the Committee. These actions included increasing behavioral health
  providers’ involvement during the astronaut hiring process, providing training on topics
  such as privacy of medical records and supervision, hiring additional behavioral health
  providers, improving the explanation for medical testing, encouraging the reporting of
  safety concerns, and surveying the Astronaut Corps and flight surgeons about their
  knowledge of policies and procedures, the relationship between astronauts and flight
  surgeons, and allegations regarding astronauts misusing alcohol.

  In addition, NASA provided us evidence of existing policies that satisfied the intent of an
  additional six recommendations. For example, NASA already had policies and
  procedures in place that addressed the Committee’s recommendations regarding selection
  of crewmembers and the need to identify and share human factor concerns among all
  organizations involved in astronaut activities.

  Finally, we found that NASA officials at Johnson and Kennedy Space Centers met the
  intent of five of the six recommendations made in the Safety and Mission Assurance
  report. The recommendations related to procedures on launch day, alcohol use by
  crewmembers, and conduct of crewmembers on the ISS. Specifically, Johnson revised an
  internal policy to include the risk of drinking to excess, finalized an internal policy on
  alcohol use in astronaut crew quarters, and provided NASA’s disciplinary policy to the
  Multilateral Crew Operations Panel, an international body that makes policy decisions
  about the ISS. In addition, Johnson uses a flight surgeon’s checklist, which includes a
  visual assessment of the astronauts up to 9 hours before launch, and an April 2008 policy
  that states that the mission-assigned flight surgeon, astronaut supervisor, and other
  managers are required to stay in Kennedy’s astronaut crew quarters prior to launch.
  These actions satisfied the intent of the report’s recommendation related to procedures on
  launch day. Finally, in response to the report, Kennedy officials issued a new policy on
  alcohol consumption in astronaut crew quarters.

  NASA Had Not Taken Actions to Address Two Recommendations. At the time of
  this review, NASA Headquarters had not addressed the recommendation from the Safety
  and Mission Assurance report to implement a NASA-wide alcohol testing program
  because no NASA official had been assigned responsibility to address the issue.

  In addition, NASA Headquarters had not addressed whether astronauts should be
  included in NASA’s Personnel Reliability Program, as recommended in the Committee
  report. The Committee found that NASA civil service and military astronauts were not
  required to report illnesses, injuries, or medication use so that the responsible NASA
  entity could determine whether the astronauts were fit to perform their assigned duties.
  Even though the NASA Office of Protective Services suspended NASA’s Personnel
  Reliability Program on June 10, 2009, we determined that including astronauts within


REPORT NO. IG-10-016                                                                            iii
                                                                                        OVERVIEW



     NASA’s Personnel Reliability Program would not address the Committee’s finding that
     astronauts were not required to report illnesses and non-NASA care. Therefore, to
     address the Committee’s finding, NASA should require astronauts to certify that they will
     report all health care, to include mental health care, they receive from providers not
     affiliated with NASA when assigned to a mission and continuously report such non-
     NASA care until the mission is completed.

     NASA Was Unable to Address One Recommendation. NASA was unable to address a
     Committee recommendation that it fully integrate behavioral health information derived
     from psychological testing evaluations into the final selection process of astronaut
     candidates if the information is found to be useful. Although NASA hired nine astronaut
     candidates in May 2009 using psychological testing evaluations in their selection, NASA
     officials said they cannot yet determine whether the behavioral health information they
     used was helpful, because the candidates have not yet successfully completed the training
     and evaluation period prior to becoming an astronaut. Additionally, it can take up to
     8 years from the time NASA hires an astronaut candidate to when the astronaut returns
     from his or her first long-duration mission. Therefore, to determine whether the
     behavioral health information collected during the hiring process was useful, NASA
     officials said they will need to observe the performance of the new astronauts for a period
     significantly longer than the year that has elapsed since their hiring.

     Management Action

     The Assistant Administrator for Human Capital Management should issue policy
     establishing a NASA-wide program to test NASA astronauts and other employees for
     alcohol. We also recommended that Johnson’s Space Medicine Division Chief issue a
     policy requiring newly assigned mission crewmembers to update any medical and
     behavioral health conditions and treatments received from non-NASA sources since their
     last annual NASA examination.

     In response to a draft of this report, the Assistant Administrator for Human Capital
     Management nonconcurred with our recommendation to issue an Agency-wide alcohol
     policy. The Assistant Administrator said that given the press of other priorities, the
     Administrator and Deputy Administrator have not yet been briefed on the legal issues and
     complexities involved with establishing an alcohol-testing requirement for NASA civil
     service employees. However, the Assistant Administrator also said that NASA will
     “work toward staffing a final Agency decision on alcohol testing of civil service
     employees.”

     In light of the Assistant Administrator’s pledge to reach a final Agency decision
     regarding testing NASA employees for alcohol, we are resolving the recommendation.
     We will close the recommendation when management issues a final decision on the
     matter.




iv                                                                          REPORT NO. IG-10-016
OVERVIEW



  The Assistant Administrator concurred with the intent of our recommendation to issue
  policy requiring astronauts to report all medical care received from non-NASA sources.
  However, rather than issue policy, the Space Medicine Division and Astronaut Office
  added a requirement to the annual family history form requiring astronauts to
  acknowledge that they must report to the Flight Medicine Clinic or Behavioral Health
  Clinic all instances of non-NASA health care that they receive.

  We obtained and reviewed the revised annual family history form and have determined
  that this action is responsive to our recommendation. Accordingly, the recommendation
  is closed.




REPORT NO. IG-10-016                                                                       v
JULY 6, 2010




                                                         CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 3

  RESULTS
      NASA Took Actions to Address 36 of 39 Recommendations _____ 4
      NASA Had Not Completed or Taken Actions to Address
        Two Recommendations ______________________________ 30
      NASA Was Unable to Address One Recommendation _________ 34

  APPENDIX A
      Scope and Methodology _______________________________ 37
      Review of Internal Controls _____________________________ 38

  APPENDIX B
      Management Comments _______________________________ 39

  APPENDIX C
      Report Distribution ___________________________________ 42




REPORT NO. IG-10-016
JULY 6, 2010




                                                                                   INTRODUCTION


Background

  Johnson Space Center is the lead Center for two NASA space missions – the Space
  Shuttle and International Space Station (ISS). Johnson’s Flight Crew Operations
  Directorate is responsible for providing trained astronauts for human space flight
  missions and experienced crewmembers to help resolve developmental and operational
  issues within the human space flight programs. The Astronaut Office, within the Flight
  Crew Operations Directorate, is responsible for selecting and training astronaut
  candidates 1 and civil service and military astronauts detailed from the Department of
  Defense.

  The Astronaut Office is supported by Johnson’s Space Life Sciences Directorate’s
  Human Adaptation and Countermeasures Division and its Space Medicine Division. The
  Human Adaptation and Countermeasures Division conducts biomedical research to
  (1) understand human responses to space flight and (2) develop and test countermeasures
  to problematic issues that may affect crew health, safety, or performance during or after
  space flight missions. The Space Medicine Division provides medical and behavioral
  health services to the Astronaut Corps, such as routine medical care and physicals,
  behavioral health assessments, and support during missions and training exercises. The
  Space Medicine Division’s Clinical Services Branch is responsible for six clinics: a
  behavioral health clinic off-site near Johnson; a flight medicine clinic at Johnson
  providing health care to astronauts and their dependents; a clinic for Johnson employees;
  two medical clinics in Russia, which provide health care to NASA astronauts when
  training in Russia; and a medical clinic at NASA’s White Sands Test Facility in New
  Mexico.

  Astronauts and their dependents receive health care services from 21 flight surgeons, 2
  2 psychiatrists, and 3 psychologists (referred to in this report as providers). The Space
  Medicine Division receives medical oversight, including reviews of the services provided
  by the Space Medicine Division to the Astronaut Corps, from the NASA Chief Health
  and Medical Officer. The Chief Health and Medical Officer is also responsible for
  developing NASA medical policies and chairing the Medical Policy Board. The Medical
  Policy Board is a Headquarters board composed of NASA and Federal physicians with
  aerospace medicine expertise that is responsible for health care policy, medical policy,
  and oversight of medical activities related to space flight.
  1
      Recent hires who need to successfully complete the training and evaluation period prior to becoming an
      astronaut.
  2
      A physician trained in aerospace (space aeronautics) medicine. Flight surgeons maintain the health of
      crewmembers, evaluate the impact of illness or injury on the ability of crewmembers to safely perform
      their duties, and develop countermeasures to the physiological effects of aviation and space flight.



REPORT NO. IG-10-016                                                                                           1
                                                                                  INTRODUCTION



    On February 5, 2007, Lisa Nowak, an astronaut detailed from the military, was arrested
    in Orlando, Florida, for personal actions that were subject to felony criminal charges.
    According to the police report, Ms. Nowak was charged with attempted kidnapping,
    attempted vehicle burglary with battery, destruction of evidence, and battery. As a result
    of the incident, the Johnson Director began an internal assessment of the Center’s
    behavioral medicine practices to determine whether Johnson personnel observed any
    behavior that might have indicated a situation existed prior to the incident and whether
    improvements could be made to the behavioral medicine program. Johnson concluded in
    a June 2007 report, “Johnson’s Internal Assessment of Medical Practices after Nowak
    Incident,” that there were no indications that something could have predicted the events
    that occurred or that anything could have been done to change them. However, the
    Johnson Director made three recommendations to improve the Center’s behavioral health
    assessment process for astronauts.

    On February 7, 2007, the NASA Administrator directed the Agency’s Chief Health and
    Medical Officer to coordinate a review of the Space Medicine Division’s medical and
    behavioral health services provided to NASA astronauts. The Chief Health and Medical
    Officer assembled seven physicians and one attorney with military or Federal
    employment experience in medical, behavioral health, and aerospace (space aeronautics)
    medicine expertise to form the Astronaut Health Care System Review Committee. The
    Committee interviewed the Chief Health and Medical Officer and various Johnson
    personnel, including Space Medicine Division management, flight surgeons, behavioral
    health providers, astronauts, and astronauts’ family members. The Committee also
    reviewed Headquarters and Johnson medical and behavioral health policies and related
    documentation. On July 16, 2007, the Committee issued “NASA Astronaut Health Care
    System Review Committee February–June 2007 Report to the Administrator,” which
    included findings and 29 recommendations related to medical and behavioral health care
    provided to astronauts and their dependents, employee perceptions, and Astronaut Office
    operations. During congressional testimony, the Committee Chair added one verbal
    recommendation – to survey NASA astronauts and flight surgeons – making a total of
    30 Committee recommendations.

    On July 26, 2007, the NASA Deputy Administrator directed the Chief of Safety and
    Mission Assurance to review allegations of astronauts’ misuse of alcohol raised in the
    Committee’s report. The Office of Safety and Mission Assurance interviewed flight
    surgeons, astronauts, and managers; reviewed Federal, NASA, and Johnson
    requirements; and analyzed safety reporting records. The resulting report, “Space Flight
    Safety Review (Alcohol Use in the Preflight Period),” August 28, 2007, stated: “There
    was no evidence of alcohol impairment by flight crew astronauts that occurred during the
    launch period or of alcohol misuse that was brought to management’s attention or
    disregarded by management.” However, the report included six recommendations related
    to NASA policies and procedures.

    On September 6, 2007, the NASA Administrator, the Chief Health and Medical Officer,
    the Chief of Safety and Mission Assurance, and the Flight Crew Operations Directorate



2                                                                         REPORT NO. IG-10-016
INTRODUCTION



  Director testified before the House Subcommittee on Space and Aeronautics regarding
  the Committee’s report and NASA’s medical and behavioral health care programs for
  NASA astronauts. The Administrator stated that the Committee’s recommendations
  would improve the medical and behavioral health care provided to the Astronaut Corps.
  In February, June, and October of 2008, NASA provided Congress with written
  documentation on its planned or completed actions to address the 30 Committee
  recommendations. In addition, Johnson reported to the Medical Policy Board from
  December 2007 through March 2009 on the status of its actions to address the
  Committee’s medical recommendations.


Objectives

  We assessed whether NASA Headquarters and Johnson had taken corrective actions that
  (1) met the intent of the recommendations in the three reviews related to the Astronaut
  Corps and (2) whether the actions were implemented. In this review, we did not test the
  effectiveness of NASA’s implementation efforts, nor did we validate the reviewers’
  underlying findings that led to the recommendations in the first place. See Appendix A
  for details of the audit’s scope and methodology.




REPORT NO. IG-10-016                                                                        3
                                                                                         RESULTS




                                                        NASA TOOK ACTIONS TO
                                                            ADDRESS 36 OF 39
                                                           RECOMMENDATIONS

           NASA took actions that met the intent of 36 of the 39 recommendations from
           the three separate reviews conducted as a result of the Nowak incident.
           Specifically, NASA officials stated that they implemented changes to address all
           3 recommendations from the Johnson review, 28 out of 30 recommendations from
           the Committee review, and 5 out of 6 recommendations from the Safety and Mission
           Assurance review.


Three Johnson Recommendations Addressed

    The June 2007 report, “Johnson’s Internal Assessment of Medical Practices after Nowak
    Incident,” included three recommendations to improve the Center’s behavioral health
    assessment process for astronauts. Specifically, the three recommendations made by the
    Johnson Director related to improving the behavioral health care provided to astronauts
    and astronaut candidates. We determined that actions taken by Johnson’s Space
    Medicine Division in response to recommendations 1ci and 3ci made in the Committee
    report satisfied the intent of the Johnson report’s recommendations.

Johnson Recommendation 1. The Johnson Director recommended a 30-minute behavioral
medicine assessment be conducted in conjunction with annual medical flight physicals.

Johnson Recommendation 2. The Johnson Director recommended that behavioral
medicine flight assessments be performed on Shuttle crewmembers.

    Audit Evaluation. Actions taken in response to Committee Recommendation 3ci (see
    page 14) met the intent of Johnson Recommendations 1 and 2. Although we did not
    review medical records to ensure that they included a psychiatrist’s determination of
    whether the astronaut was qualified for active flying status, we verified that the Space
    Medicine Division Chief issued guidance (SD-09-021, “Annual Astronaut Behavioral
    Health Exam,” March 23, 2009) to the behavioral health providers to institute annual
    behavioral wellness evaluations for all astronauts regardless of flying status. The
    guidance includes a requirement for a psychiatrist to determine whether the astronaut is
    qualified for active flying status.

Johnson Recommendation 3. The Johnson Director recommended that NASA enhance the
aeronautical adaptability ratings for astronaut medical selections.

    Audit Evaluation. Aeronautical adaptability is the assessment of an astronaut’s fitness
    for flying duty. The aeronautical adaptability rating covers motivational issues, such as


4                                                                          REPORT NO. IG-10-016
RESULTS



   how a family feels about the astronaut flying, anger, anger management, and
   achievements in their lives. The Army, Navy, and Coast Guard all use the aeronautical
   adaptability rating for assessing fitness for flying duty.

   Although the Space Medicine Division did not enhance the aeronautical adaptability
   ratings used for astronaut selections in response to this recommendation, the Johnson
   Deputy Director stated that the recommendation’s intent had been satisfied by changes
   made to address Committee Recommendation 1ci (see below). We verified that those
   changes had been implemented; therefore, we agree with the Johnson Deputy Director
   that NASA took corrective actions to meet the intent of this recommendation.


Twenty-eight Committee Recommendations Addressed

   The Committee’s report, “NASA Astronaut Health Care System Review Committee
   February–June 2007 Report to the Administrator,” contained 29 recommendations and
   during congressional testimony the Committee Chair added another recommendation.
   We determined that NASA took actions to satisfy 21 of the Committee’s
   30 recommendations and provided evidence of existing policies and procedures that
   satisfied the intent of 7 additional recommendations. These recommendations included
   behavioral health for astronauts and astronaut candidates; medical care for astronauts and
   their dependents; management, supervision, and training of astronauts; conduct of and
   alcohol use by astronauts; NASA’s safety reporting system; and the operation of the
   medical and behavioral health clinics. To date, NASA had not addressed one of the
   Committee’s remaining two recommendations (see page 30). Finally, NASA was unable
   to take action in response to the final recommendation for reasons explained on page 34.

Committee Recommendation 1ci. The Committee found that while psychological testing
and evaluation is conducted during the hiring of astronauts and is intended to identify
applicants who can adapt most readily and perform effectively in the extreme environment
of space flight, this information is rarely and inconsistently used. Further, details on the use
of psychological testing methods, criteria used for evaluation, and optimal performance data
either do not exist or were not made available to the Committee for review. The Committee
recommended that NASA charter an expert panel to determine what, if any, psychological
testing should be performed and how it should be used to select astronaut candidates suitable
for space operations.

   Management Actions. To address this recommendation, the Space Medicine Division
   reviewed the current astronaut selection process. In addition, the Space Medicine
   Division formed an Astronaut Selection Working Group consisting of eight members
   selected from a list of credentialed psychologists and professionals with military
   operational, academic, or consultant experience. The Working Group made the following
   10 recommendations.




REPORT NO. IG-10-016                                                                               5
                                                                                           RESULTS



       1. Perform a job/work analysis to verify and modify the appropriateness of 10
          astronaut attributes. Ensure coverage of the full spectrum of astronaut training
          and duties, to include ground and flight performance.

       2. Develop a matrix of astronaut attributes by assessment techniques. The matrix
          should map assessment techniques, tools, and measures to astronaut attributes.
          Also, perform an evaluation of current assessment tools against the matrix to
          identify gaps, unnecessary redundancies, and irrelevance.

       3. Perform a criterion-related validation to evaluate the evidence base for the
          evaluation tools currently in use. This process would evaluate the astronauts’
          scores from selection tools and tests and compare them to scores from training
          data.

       4. Review best practices to ensure optimal effectiveness of the astronaut selection
          program.

       5. Update the Astronaut Selection Board interview process to include an operational
          psychologist during the interview.

       6. Update the Astronaut Selection Board final deliberation process to include an
          operational psychologist during the deliberation.

       7. Analyze the presentation of available data to derive qualitative and quantitative
          combinations of information to present expected astronaut performance to the
          Astronaut Selection Board at critical points to assist in its decision making.

       8. Upgrade the current astronaut selection interview process to include two
          behavioral specialists who complete ratings on each applicant, creating anchors
          for ratings within each dimension.

       9. Establish ongoing behavioral science support to astronauts.

       10. Change the initial applicant screening process to benefit from best practices
           within the behavioral health community.

    Audit Evaluation. We verified that NASA chartered an expert panel and held a
    workshop at Johnson in May 2008 and that the Working Group made 10
    recommendations. In order to assess whether Johnson implemented the Committee’s
    recommendation, we reviewed details of methods, criteria, and optimal performance data
    used to identify applicants who can adapt most readily and perform effectively in the
    extreme environment of space flight. We also reviewed records identifying behavioral
    health specialists in the interview and the group’s final deliberation process to determine
    that the Space Medicine Division had implemented Working Group Recommendations
    2–3 and 5–10.




6                                                                          REPORT NO. IG-10-016
RESULTS



   According to the Space Medicine Division Chief, Recommendation 1 was not
   implemented because a work analysis must be done when there is a significant mission
   change affecting the work performed by astronauts. Because there was not a significant
   mission change prior to hiring the May 2009 astronaut class, the Space Medicine
   Division Chief said the time was not right to implement this recommendation. In
   addition, the Space Medicine Division did not implement Recommendation 4 prior to
   selecting the May 2009 astronaut class because the staff considered the efforts of the
   Working Group as a best practices review and, therefore, did not require a separate best
   practice assessment. We agree with the reasoning for not implementing
   Recommendations 1 and 4. Therefore, we determined that NASA implemented
   corrective actions that met the intent of the Committee recommendation.

Committee Recommendation 1cii. The Committee recommended that the extensive
behavioral health data already collected be analyzed to determine whether the data can be
applied to future candidate selection and potentially guide astronaut selection for flight.

   Management Actions. The Space Medicine Division behavioral health providers
   reviewed selection ratings on 53 astronauts from 1998, 2000, and 2003 and placed all
   selection scores into a database. In addition, they reviewed the need for analyses of
   different astronaut jobs and worked with Johnson’s Astronaut Office, Space Shuttle
   Program and ISS Program training offices, and Johnson’s Human Resources Office to
   determine whether other data was available for analysis. The Space Medicine Division
   also met with the Astronaut Office Chief and obtained verbal agreement for the
   behavioral health providers to spend more time with astronaut candidates to perform
   testing.

   Audit Evaluation. We verified that the Space Medicine Division worked with the
   Astronaut Office to review the prior years’ internal selection ratings and computed
   correlations on the performance ratings. In addition, we verified that the behavioral
   health data collected was used to determine whether such data could be applied to future
   candidate selection and potentially guide astronaut selection for missions. We also
   confirmed that NASA used this data in the selection of the May 2009 astronaut candidate
   class. Therefore, we concluded that NASA had implemented corrective actions that met
   the intent of the recommendation.

Committee Recommendation 1di. The Committee found the use of behavioral health
selection and patient data to be a matter of concern for astronauts, family members, and
medical health and behavioral health providers. The Committee recommended that NASA
ensure that the use of all psychiatric and psychological data, both patient and research
related, is explained to astronaut candidates, astronauts, and family members. In addition,
appropriate privacy and human subject considerations should apply to use of the data.




REPORT NO. IG-10-016                                                                          7
                                                                                         RESULTS



    Management Actions. To address the behavioral health clinic’s Privacy Act
    requirements, the Space Medicine Division issued five Behavioral Health and
    Performance (BHP) policies and procedures on July 31, 2008:

       •   “BHP Provider Rules and Regulations”

       •   BHP 3.00, “BHP Patient Access to Clinical Records”

       •   BHP 4.00, “BHP Patient Rights and Responsibilities”

       •   BHP 7.00, “BHP Privacy Act of 1974, as amended Operating Plan”

       •   BHP 8.00, “BHP Release of Privacy Act Information”

    Additionally, the Space Medicine Division developed “Protection, Privacy, and
    Confidentiality of Medical Data,” a training course on providers’ Privacy Act
    responsibilities, and all Space Life Sciences Directorate personnel completed this course
    by December 2007. In February 2009, the course was also made available to all Johnson
    employees through the Center’s online training system. Finally, the Space Medicine
    Division developed a brochure on the behavioral health clinic and patient privacy rights.
    The brochure was made available at the clinic and sent to every astronaut in the spring of
    2007.

    For the protection of human subjects during NASA research, NASA and Johnson already
    had policies and procedures in place for researchers’ use of an astronaut’s medical and
    Privacy Act data, as required by Title 14, Code of Federal Regulations, Part 1230,
    “Protection of Human Subjects,” June 18, 1991. Specifically, NASA Policy
    Directive 7100.8E, “Protection of Human Research Subjects,” May 2002 (revalidated
    April 16, 2007), and NASA Procedural Requirements (NPR) 7100.1, “Protection of
    Human Research Subjects,” March 2003 (revalidated July 7, 2008), require an astronaut’s
    written consent prior to a researcher accessing medical data. The requirements state that
    an astronaut’s informed consent and an assurance of confidentiality must be on file in
    order to prevent the inappropriate release or use of any medical data. Applicable privacy
    and confidentiality requirements are found in Johnson Policy Directive 1382.5B,
    “Maintaining the Privacy of Biomedical Research Data,” January 27, 2004.

    Audit Evaluation. We did not review day-to-day operations or medical records to
    ensure that NASA personnel followed the privacy requirements of the July 2008 BHP
    policies and procedures. However, we verified that the Space Medicine Division issued
    the five BHP policies related to the Privacy Act requirements, as well as providing
    astronauts with the behavioral health clinic brochure that discusses privacy rights
    information. We also verified that the Space Medicine Division created a training course
    on privacy, that Space Life Sciences Directorate personnel took the course, and that the
    course was available to Johnson employees through an online training system. In
    addition, we verified that Johnson had existing policies and procedures for use of



8                                                                         REPORT NO. IG-10-016
RESULTS



  employee privacy data for research purposes. Therefore, we determined that NASA took
  corrective actions that met the intent of the recommendation.

Committee Recommendation 2ai. The Committee reported that several astronauts
expressed concerns regarding the purpose of their medical testing. Therefore, the
Committee recommended that NASA ensure that policies and procedures are in place and
properly implemented to communicate the purpose of medical tests performed on astronauts
prior to, during, and after flight. These policies should clearly indicate which tests are
intended for medical or safety monitoring and which are for research purposes. The policies
should also require an astronaut’s informed consent for gathering data for research. The
Committee reported that including astronauts in this process would result in more complete
information to enhance cooperation between the medical and astronaut community.

  Management Actions. The Space Life Sciences Directorate’s Human Adaptation and
  Countermeasures Division Deputy Chief stated that all research involving astronauts is
  approved through the Committee for the Protection of Human Subjects. The Space Life
  Sciences Directorate’s Work Instruction SA-WI-007, “Space and Life Science Flight
  Crew Informed Consent Briefings,” September 24, 2003, states that the Directorate
  conducts briefings to provide information on planned human testing that allow potential
  subjects to make an informed decision on participation. The briefings establish a
  nonprofessional’s level of understanding on the life science experiments, risks and
  benefits of obtaining medical and scientific data, and crewmember participation
  expectation. A consent form and a data-sharing release form are given to the
  crewmembers to review, sign, and return if they want to participate in the testing.
  However, crewmembers can elect not to participate in the testing if they later change
  their mind. The Space Life Sciences Directorate also provides the informed consent
  briefing package (including the agenda and presentations) before finalizing and
  presenting it to the Flight Crew Operations Directorate for review.

  In addition to this existing process, the Space Life Sciences Directorate’s Human
  Adaptation and Countermeasures Division Deputy Chief said the Directorate enhanced its
  procedures by implementing a color-coding system to further distinguish medical
  operational requirements from research.

  Audit Evaluation. We verified that the Space Life Sciences Directorate already had
  procedures in place to communicate the purpose of medical tests performed prior to,
  during, and after flight, as well as to obtain agreement and consent forms from
  crewmembers prior to the tests. We reviewed the Work Instruction and verified that it
  also provides guidance for conducting the informed consent briefings, defines roles and
  responsibilities, and establishes the implementing authority for each briefing. We also
  verified that the Directorate uses a color-coded system to distinguish medical operational
  requirements from research. Therefore, we determined that NASA implemented
  corrective actions that met the intent of the recommendation.

Committee Recommendations 2bi. The Committee identified alleged cases of
inappropriate alcohol use by astronauts in the immediate preflight period. The Committee


REPORT NO. IG-10-016                                                                           9
                                                                                             RESULTS



recommended that NASA ensure that specific policies, procedures, educational efforts, and
disciplinary actions are in place to foster a culture that holds individuals and supervisors
accountable for safe and responsible use of alcohol.

     Management Actions. The Flight Crew Operations Directorate Assistant Director stated
     that Flight Crew Operations Directorate management could enforce NPR 3752.1,
     “Disciplinary and Adverse Actions,” May 7, 1999 (revalidated May 5, 2006), to address
     the improper use of alcohol by civil service astronauts and refer military astronauts to the
     respective military entity for disciplinary actions. The Flight Crew Operations
     Directorate Director stated that a flight surgeon has always been assigned to each mission
     and the mission-assigned flight surgeon and other NASA managers stay in the Johnson
     and Kennedy crew quarters during the prelaunch period. Additionally, the flight surgeon
     and NASA managers are with the crew from wake-up until launch on launch day. The
     Space Medicine Division Chief added that the mission-assigned flight surgeon performs a
     visual check of each astronaut prior to launch.

     The Flight Crew Operations Directorate created CA-07-28, “Space Flight Alcohol
     Policy,” on July 27, 2007, and updated the policy under CA-08-20 on June 25, 2008. The
     policy applies to any person launching on a NASA spacecraft and states that alcohol is
     prohibited within 16 hours of space flight. Johnson Policy Directive 8710.1, “Alcohol
     Consumption in the Astronaut Crew Quarters,” October 3, 2007, and Kennedy NASA
     Policy Directive 1600.4, “Alcohol Consumption in the Astronaut Crew Quarters,”
     October 18, 2007, identify policies for limited and responsible alcohol consumption in
     the astronaut crew quarters at Johnson and Kennedy, respectively. The Astronaut Office
     Chief briefed NASA astronauts in January 2008 to ensure awareness of the new policies
     and management’s expectations on alcohol use and abuse. In addition, the policies were
     provided to all astronauts.

     Audit Evaluation. We did not visit crew quarters to determine whether the policies were
     followed. However, we verified that the above-mentioned policies address the safe and
     responsible use of alcohol within Johnson and Kennedy crew quarters and that the
     disciplinary policy is applicable to all civil service, military, contractor, or international
     partner personnel and their guests, to include astronauts. We also verified that the
     policies are available from the Astronaut Office or on Johnson’s Web site. Finally, we
     verified that the Space Medicine Division has a flight surgeon checklist that states a
     visual assessment of the astronauts should occur between 5 and 12 hours before launch.
     Therefore, we determined that NASA took corrective actions to meet the intent of the
     recommendation.

Committee Recommendation 2bii. The Committee identified alleged cases of
inappropriate alcohol use by astronauts in the immediate preflight period. The Committee
recommended that NASA ensure that specific policies regarding alcohol use, including but
not limited to a mandatory alcohol-free period prior to flight and the availability and use of
alcohol in crew quarters, are in place and enforced.




10                                                                            REPORT NO. IG-10-016
RESULTS



  Management Actions. See Management Actions in response to the previous
  recommendation (Committee Recommendation 2bi).

  Audit Evaluation. We did not visit crew quarters to determine whether the policies were
  followed. However, we verified that CA-08-20 states that alcohol is prohibited within
  16 hours of space flight and that Kennedy NASA Policy Directive 1600.4 and Johnson
  Policy Directive 8710.1 provide policies for limited and responsible alcohol consumption
  in the astronaut crew quarters at Johnson and Kennedy, respectively. Therefore, NASA
  took corrective actions to meet the intent of the recommendation.

Committee Recommendations 2biii. The Committee recommended that NASA institute a
mechanism to monitor and ensure that the concerns raised by crewmembers, flight surgeons,
and other individuals are evaluated and acted upon.

  Management Actions. Both the Flight Crew Operations Directorate Director and
  Assistant Director stated that NASA has existing policies and procedures that address this
  recommendation. In February 2008, NASA reported to Congress that since the Columbia
  accident, NASA leadership has ensured that mechanisms were in place for employees to
  raise flight safety and mission-success concerns without the fear of retribution. In 1987,
  the NASA safety reporting system was established for NASA employees to anonymously
  report safety and hazard concerns to upper management without fear of reprisal. The
  reporting system has since been expanded to cover all NASA operations, including space
  flights.

  In addition, NASA established a technical authority for engineering, safety, and medical
  and health in NPR 7120.5D, “NASA Space Flight Program and Project Management
  Requirements,” March 6, 2007, as another way for people to report safety and mission-
  impacting concerns. The Astronaut Office Chief briefed NASA astronauts in January
  2008 on management’s expectations that employees raise flight safety concerns to
  Johnson or NASA management.

  In addition, the Flight Crew Operations Directorate conducted an anonymous survey of
  astronauts and flight surgeons from August through December 2007. The survey showed
  that both astronauts and flight surgeons were aware of the process to raise safety concerns
  through the chain of command or the NASA anonymous reporting system.

  Audit Evaluation. We verified that NASA has an anonymous safety reporting system
  and that employees have been informed through various means about how to report
  concerns. We verified that the survey indicated that prior concerns raised were addressed
  by management and the person raising the concern received feedback. We also verified
  that NPR 7120.5D requires that a project plan describe a project’s internal processes for
  handling dissenting opinions. Finally, we verified that the NASA safety reporting system
  requires an entry documenting the actions taken to address any concerns raised.
  Therefore, NASA met the intent of the recommendation even though NASA did not
  institute a new mechanism to monitor and ensure that concerns raised by crewmembers,
  flight surgeons, and other individuals are evaluated and acted upon.


REPORT NO. IG-10-016                                                                            11
                                                                                           RESULTS



Committee Recommendation 2ci. The Committee recommended that NASA senior
leadership must ensure and support policies and procedures that allow flight surgeons,
trainers, astronaut peers, and others to raise concerns to leadership.

     Management Actions. As discussed in the previous recommendation’s Management
     Actions, NASA has an anonymous safety reporting system and created safety,
     engineering, and medical technical authority positions to whom employees can report
     safety and mission concerns. According to the Flight Crew Operations Directorate
     Director and the Space Medicine Division Chief, senior Headquarters and Johnson
     management issued e-mails explaining the reporting process and the importance of
     employees timely raising safety concerns. Johnson management said they continue to
     hold periodic employee meetings to emphasize the importance of employees reporting
     safety concerns and supervisors soliciting employee input. In addition, Johnson hangs
     safety posters throughout its buildings and provides information on reporting safety
     issues and concerns on NASA internal Web sites.

     Audit Evaluation. In addition to the Management Actions we evaluated in response to
     Committee Recommendation 2biii, we witnessed posters throughout NASA and reviewed
     letters from senior management encouraging employees to report safety issues without
     reprisal. Therefore, corrective actions implemented in response to Committee
     Recommendation 2biii as well as this recommendation met the intent of the
     recommendation.

Committee Recommendation 3bi. The Committee found that continuity of care over time
with a single provider increases the quality of medical care. However, NASA’s health care
system is highly fragmented and does not promote continuity of care due to the large
number of flight surgeons who can potentially provide care to any one astronaut. The
Committee recommended that NASA review flight surgeon assignments and restructure
where possible to enhance continuity of care and consider assigning each astronaut to a team
of two to three flight surgeons who are responsible for providing or overseeing every
episode of care, whether or not they are the mission-assigned flight surgeon.

     Management Actions. The Space Medicine Division Chief reviewed the Department of
     Defense’s medical process for assigning pilots to a small team of doctors and reviewed
     the operations of three prominent non-NASA medical clinics. The Space Medicine
     Division Chief, who is also a retired military physician, concluded that NASA astronauts
     and medical personnel could not effectively operate under the Department of Defense’s
     model because NASA’s medical operations are not similar to the Department of
     Defense’s medical operations. However, the Space Medicine Division Chief identified
     opportunities for improvement during his review of the three prominent non-NASA
     medical clinics’ operations, to include identification of strategies to improve the quality
     of care and astronaut safety. To improve continuity, consistency, and quality of care to
     patients, each flight surgeon’s assignments were reviewed and flight surgeons were
     permanently assigned to the flight medicine clinic used by the astronaut versus having a
     rotational assignment through the clinics. This resulted in a smaller group of flight
     surgeons treating the astronauts. Additionally, a flight surgeon was assigned to review


12                                                                          REPORT NO. IG-10-016
RESULTS



   each astronaut’s medical records whenever a medical action was performed. In May
   2008, the Space Medicine Division’s six clinics were reorganized under one branch to
   standardize care, improve communications between the providers, and improve the
   quality of treatment by enhancing primary care provided to astronauts. Five additional
   Space Medicine Division quality care committees were formed, along with the existing
   Space Medicine Division committees to assist managers with improving the Space
   Medicine Division operations.

   Audit Evaluation. We verified that the Space Medicine Division reviewed the medical
   process for the Department of Defense and other external entities, and reorganized the
   clinics. We agree that organizationally placing all clinics under one branch results in a
   less fragmented structure. We also agree that continuity of care for an astronaut should
   be improved by reducing the number of flight surgeons who treat the astronaut and
   assigning a flight surgeon to each astronaut to review the medical record after each
   medical action. Therefore, we concluded that NASA implemented corrective actions that
   met the intent of the recommendation.

Committee Recommendation 3bii. The Committee recommended that psychologists shift
from only providing “patient” care for treatment of disease to assist astronauts in assessing
areas of strength and weakness and provide skills to optimize mission success.

   Management Actions. Space Medicine Division management stated that behavioral
   health providers were already providing performance enhancement to all astronauts prior
   to the Committee’s recommendation. Specifically, Johnson’s “Behavioral Health
   Performance Program Plan, Definition and Implementation Guide” (JSC 27384,
   November 1999), states that behavioral health providers concentrate on enhancing
   employee performance versus identifying mental health problems (diseases). Behavioral
   health providers conduct operational psychology training of astronauts and their families
   on the psychological factors of long-duration missions. In October 1999, the providers
   developed a 3-day training course, “Expeditionary Workshop,” for astronauts assigned to
   long-duration missions. The training course included training on self-care and self-
   management, conflict management, cross-cultural communication, and leadership.
   Behavioral health providers also debrief astronauts who participate in extensive training
   events.

   To address the recommendation, the Space Medicine Division assessed the behavioral
   health services it provides to the Astronaut Office and hired an additional psychologist
   and a psychiatrist. Additionally, the behavioral health providers reviewed best practices
   from non-NASA psychologists who work in industrial, organizational, and business
   industries.

   Audit Evaluation. We verified that the behavioral health providers were already
   providing performance enhancement to all astronauts, according to the training and
   guidance described in Management Actions, prior to the Committee’s recommendation.
   In addition, the hiring of a psychologist and a psychiatrist should augment the behavioral
   health services provided to the astronauts. Therefore, NASA met the intent of the


REPORT NO. IG-10-016                                                                            13
                                                                                          RESULTS



     recommendation even though the Space Medicine Division did not change its
     performance enhancement processes as specifically recommended.

Committee Recommendation 3ci. The Committee found that astronauts do not receive a
periodic psychological evaluation after they become an astronaut candidate, unless selected
for a long-duration mission. The Committee recommended that behavioral health
evaluations be integrated into the annual flight physical for all astronauts, regardless of
mission assignment status, whether long-duration, short-duration, or unassigned. These
evaluations should include recognized screening instruments for issues such as depression,
anxiety, relationship stress, substance use, and the cumulative effects of normal life events
and should be conducted by the flight surgeon responsible for the continuity of the
astronaut’s care in consultation with behavioral health.

     Management Actions. In August 2008, the Space Medicine Division Chief directed the
     behavioral health providers to include a 30-minute behavioral wellness evaluation as part
     of an astronaut’s annual medical examination beginning October 1, 2008. The Chief
     stated that the behavioral wellness evaluation should encompass the astronaut’s NASA
     career status, professional training and workload, sleep and fatigue, peer and management
     relationships, social and family life, greatest professional and personal challenges, and
     primary goals for the coming year.

     On March 23, 2009, the Space Medicine Division Chief issued SD-09-021, “Annual
     Astronaut Behavioral Health Exam,” which states that a licensed and credentialed
     psychiatrist will perform annual exams to assess an astronaut’s behavioral health. The
     psychiatrist will document whether the astronaut is qualified or disqualified from active
     flying status, and those cases that are disqualified will be brought before the Aerospace
     Medicine Board.

     Audit Evaluation. We did not review medical records to ensure that they included a
     30-minute behavioral wellness evaluation as a part of the astronaut’s annual medical
     examination. However, we verified that the Space Medicine Division issued guidance to
     the behavioral health providers to institute the 30-minute behavioral wellness evaluations.
     We also reviewed the behavioral wellness evaluation interview questions and determined
     that the discussion topics should address the Committee’s concerns on issues such as
     depression, anxiety, relationship stress, substance use, and the cumulative effects of
     normal life events. Therefore, NASA has taken corrective actions to meet the intent of
     the recommendation.

Committee Recommendation 3cii. The Committee recommended that behavioral health
providers provide regular training to flight surgeons regarding behavioral health assessment
and treatment.

     Management Actions. In response to this recommendation, behavioral health providers
     stated that flight surgeons have always received general space flight behavioral health
     prevention and support training even though there was no formal policy to do so. The
     behavioral health providers conducted behavioral health assessment and treatment


14                                                                          REPORT NO. IG-10-016
RESULTS



   training for the flight surgeons in July 2008 and January 2009. On March 23, 2009, the
   Space Medicine Division Chief issued SD-09-020, “Flight Surgeon Training in
   Behavioral Health and Performance,” to formally require behavioral health providers to
   conduct an annual training session for flight surgeons. The training should include a
   description of the behavioral health services offered, specific stresses known and treated
   in the Astronaut Corps, and training that will help the flight surgeon identify behaviors
   that should be reported or addressed.

   Audit Evaluation. We verified that the Space Medicine Division Chief issued a policy
   for annual behavioral health assessment and treatment training for flight surgeons and
   that the BHP providers conducted the aforementioned training in July 2008 and January
   2009. Therefore, NASA implemented actions that met the intent of the recommendation.

Committee Recommendation 4ai. The Committee recommended that the process and
medical criteria used to select astronauts for flight be explicit, available to each astronaut,
and made as far in advance as possible to decrease the anxiety, speculation, and uncertainty
surrounding space flight selection.

   Management Actions. The Flight Crew Operations Directorate policy, “Crew
   Assignment Process,” October 2001, defines the Astronaut Office’s process for selecting
   astronaut crewmembers for a mission and informing astronauts of their flight eligibility
   and mission requirements. Specifically, the Astronaut Office Chief briefs the astronauts
   on NASA’s selection process and the specific criteria for each mission’s crew selection.
   A flight surgeon discusses health issues as well as medical certification for flight with
   each astronaut during the annual physical examination. In addition, the Flight Crew
   Operations Directorate had a formal process to inform the astronauts of their flight
   eligibility status and progress throughout the training process prior to the Committee’s
   recommendation. Specifically, Johnson’s Astronaut Evaluation Board reviews each
   astronaut’s flight status and performance after each training exercise and mission. The
   Astronaut Evaluation Board recommends to the Astronaut Office Chief whether the
   astronaut should be eligible, conditionally eligible, or ineligible for flight assignments
   based on the astronaut’s level of performance. The Astronaut Office Chief then verbally
   discusses the astronaut’s eligibility with the astronaut. According to Johnson officials,
   these processes are still in place.

   Audit Evaluation. We verified that prior to the Committee’s recommendation, the
   Flight Crew Operations Directorate had formal, documented processes for notifying
   astronauts of the crew selection process and the medical and performance qualifications
   for flight. Therefore, NASA meets the intent of the recommendation even though the
   Flight Crew Operations Directorate did not change its selection and notification process.

Committee Recommendation 4bi. The Committee stated the Flight Crew Operations
Directorate is primarily responsible for providing National Outdoor Leadership School and
NASA extreme environment mission operations exercises to astronauts that focus on group
and interpersonal skills. The Committee recommended that these two programs be
evaluated for their usefulness in astronaut selection, evaluation, and training. Behavioral


REPORT NO. IG-10-016                                                                              15
                                                                                           RESULTS



health experts should be included as part of planning and the astronaut selection, training,
and evaluation team for these and other related environment exercises.

     Management Actions. The Flight Crew Operations Directorate Assistant Director and
     the Space Medicine Division Chief stated that astronaut training and exercises, including
     the National Outdoor Leadership School and NASA extreme environment mission
     operations exercises, have always been used by Flight Crew Operations Directorate
     management to assess which astronauts will be selected as permanent astronauts and
     crewmembers. The Astronaut Office Chief commented that the astronauts enjoy and
     benefit from such training; however, funding and astronaut time constraints affect the
     frequency of these two specific courses. Further, behavioral health providers stated that
     they have always been involved and continue to be involved in the planning, training, and
     evaluating of analog courses for astronaut candidates and astronauts.

     Audit Evaluation. We verified that Flight Crew Operations Directorate management has
     a process for using various criteria, including performance on training and exercises, to
     determine whether astronaut candidates will become permanent astronauts and which
     astronauts will become crewmembers. We reviewed documents that showed that
     National Outdoor Leadership School and NASA extreme environment mission operations
     exercises have been used in the past and that behavioral health providers provided
     briefings to the astronauts involved. Therefore, NASA met the intent of the
     recommendation even though the Flight Crew Operations Directorate did not change its
     processes related to analog training and exercises.

Committee Recommendation 6ai. The Committee recommended that NASA develop
privacy policies and procedures that ensure that individual astronaut electronic medical
records are viewable only on a strict need-to-know basis by clinicians directly involved in
relevant aspects of astronaut care. In addition, the Committee recommended that privacy
policies related to astronaut medical records should be consistent with civilian standards of
practice and Federal privacy laws.

     Management Actions. In response to this recommendation, on July 31, 2008, the Space
     Medicine Division Chief issued “BHP Provider Rules and Regulations” and BHP 1.00,
     “BHP Documentation Standards.” Among other things, these policies outlined
     safeguards to protect the privacy of astronaut electronic records. The BHP Provider
     Rules and Regulations state:

        1. Electronic medical records must be filed in a secure area away from the view of
           non-medical personnel, including patients;

        2. Computer screens must be turned so that patient information is not visible to
           others;

        3. E-mails containing confidential patient medical information must be sent
           encrypted;



16                                                                         REPORT NO. IG-10-016
RESULTS



      4. Each provider is responsible for ensuring privacy during patient appointments by
         keeping voices low and office doors closed; and

      5. When behavioral health examinations of the opposite gender are conducted, an
         administrative assistant or another provider is recommended to remain elsewhere
         in the office suite.

  In addition, BHP 1.00 states that behavioral health clinical records will be kept in a
  uniform, legible fashion; available to authorized behavioral health personnel on a timely
  basis; protected by prudent safeguards from unauthorized inspection; and maintained as a
  hard paper copy or as a component to a secure electronic medical record. The policy also
  states that behavioral health providers will transfer clinical information to outside
  physicians, psychiatrists, psychologists, and hospitals on a timely basis when properly
  authorized, per the Privacy Act of 1974, or when otherwise required to do so by law.

  Audit Evaluation. We did not review astronaut medical records to determine whether
  they were accessed only on a need-to-know basis. However, we verified that these two
  policies address the privacy concerns related to access to electronic medical records
  raised by the recommendation. Therefore, we believe that NASA has taken corrective
  actions to meet the intent of the recommendation.

Committee Recommendation 6di. The Committee found that the flight medicine clinic
has received consultations from the Joint Commission responsible for the accreditation of
health care organizations; however, no formal external review or accreditation has been
performed. The Committee recommended that NASA establish a program of external peer
review of its medical and behavioral health staff.

  Management Actions. The Chief Health and Medical Officer stated that NASA clinics
  are not required to be accredited. Nevertheless, the Space Medicine Division Chief stated
  that the flight medicine clinic had a procedure for quarterly internal peer reviews
  involving flight surgeons. However, a similar peer review procedure did not exist for the
  behavioral health providers. Therefore, in July 2008 the Space Medicine Division issued
  BHP 5.00, “BHP Peer Review Program,” to require quarterly internal peer reviews. The
  first review was conducted in the second quarter of 2009.

  In addition, the Office of the Chief Health and Medical Officer conducted biennial peer
  reviews of the medical clinics in 2005 and 2007; however, the behavioral health clinic’s
  operations were not reviewed. Therefore, the Office of the Chief Health and Medical
  Officer developed a checklist of behavioral health issues to be reviewed during the peer
  reviews. As part of the Chief Health and Medical Officer’s review of Johnson in May
  2009, an independent, non-NASA behavioral health provider conducted a review of the
  behavioral health program and provided a written assessment. The Chief Health and
  Medical Officer reported on September 29, 2009, that Johnson’s BHP Program was
  compliant with NASA requirements.




REPORT NO. IG-10-016                                                                          17
                                                                                         RESULTS



     The Space Medicine Division Chief stated that external (non-NASA) peer reviews will be
     conducted when needed. For example, prior to the Nowak incident, the Space Medicine
     Division was in the process of obtaining an external peer review of the behavioral health
     program. However, he said that a formal policy requiring regular peer reviews does not
     exist because the reviews are costly, physicians with an aeromedical background are not
     readily available, and the Space Medicine Division has concerns about the exposure of
     astronaut privacy information to the public.

     Audit Evaluation. We reviewed BHP 5.00 related to internal peer reviews, the results of
     the last three Office of the Chief Health and Medical Officer reviews, and the written
     assessments of the last two behavioral health reviews conducted by independent, non-
     NASA behavioral health providers.. In addition, we reviewed two external reviews of the
     behavioral health clinic performed since the Nowak incident. We determined that the
     actions taken address the Committee’s concerns. Therefore, NASA implemented
     corrective actions that met the intent of the recommendation.

Committee Recommendation 6ei. The Committee found that dependents of astronauts
have the choice of seeing community providers or NASA providers for medical, dental, and
behavioral health care. The Committee recommended that NASA establish policies and
procedures that ensure that dependents receive quality care if they see community providers.

     Management Actions. The Space Medicine Division Chief stated that NASA could
     only control the quality of care provided by NASA providers and cannot control the
     quality of care provided by a community provider that the patient selected. In addition,
     the Space Medicine Division said it had procedures for patient referrals for medical
     health issues (Medical Staff Rules and Regulations, February 22, 2006) prior to the
     Committee’s recommendation. A similar patient referral procedure for mental health was
     issued on July 31, 2008 (BHP Provider Rules and Regulations). The Space Medicine
     Division Chief stated that beyond the referral process, the Space Medicine Division does
     not have any control over which community provider a dependent may use.

     Audit Evaluation. We agree that NASA has no control over which non-NASA
     community health provider a dependent may see. We verified that the Space Medicine
     Division had medical and behavioral health procedures for referring patients to providers
     not affiliated with NASA. Therefore, NASA met the intent of the recommendation even
     though the Space Medicine Division did not establish new policies and procedures to
     address the Committee recommendation.

Committee Recommendation 6fi. The Committee recommended that all behavioral health
providers have access to the patient’s electronic medical records. A patient in the behavioral
health clinic should have the visit recorded in the electronic medical record, and a
disposition should be made by a flight surgeon. The full behavioral health note does not
need to be included in the electronic medical record. The behavioral health provider can
discuss the case by phone or in person with the flight surgeon.




18                                                                         REPORT NO. IG-10-016
RESULTS



   Management Actions. The Space Medicine Division Chief developed “BHP Provider
   Rules and Regulations” to ensure that astronaut visits are recorded in the electronic
   medical record and that all medical and behavioral health care providers have access to
   appropriate medical records. BHP 1.00, “BHP Documentation Standards,” requires that
   the flight surgeon record every patient contact and any aeromedical disposition in the
   electronic medical record; however, the specifics on the behavioral health condition and
   services provided do not need to be detailed in the electronic record. The Division Chief
   said that when needed, the behavioral health provider can discuss specific cases that
   affect the mission with the responsible flight surgeon. The Space Medicine Division
   Chief stated that all behavioral health providers have been briefed on this process. In
   addition, access to medical records by providers is managed through the established flight
   medicine clinic’s records access application process.

   Audit Evaluation. We did not review medical records to ensure that behavioral health
   visits were recorded or that they included a disposition by a flight surgeon. However, we
   verified that “BHP Provider Rules and Regulations” addresses electronic record privacy
   and confidentiality. We also verified that BHP 1.00 requires that flight surgeons record
   every patient contact and any disposition in the electronic medical record; however, as
   indicated above, specifics on the patient’s behavioral health do not need to be detailed in
   the electronic record. Therefore, NASA has taken corrective actions to meet the intent of
   the recommendation.

Committee Recommendation 7aii(1). The Committee found that Johnson had well-
defined procedures for the flight medicine clinic; however, a documented credentialing and
privileging process did not exist for the behavioral health clinic. Primary source verification
occurs during the hiring process for flight surgeons, when the original source is contacted to
verify the accuracy of the provider’s qualifications. The Committee recommended that
NASA establish one credentialing and privileging authority for both flight surgeons and
behavioral health providers, with documented processes for accountability, primary source
verification, and peer review.

   Management Actions. The Space Medicine Division Chief stated that all NASA health
   care providers are licensed by a Government agency to practice medicine by the
   applicable medical association (American Medical Association or American Psychiatric
   Association). In addition, the State of Texas requires licenses for health care providers.
   Therefore, all NASA providers have a medical or psychiatric license.

   On July 31, 2008, the Space Medicine Division issued BHP 2.00, “BHP Initial
   Appointment to Medical Staff”; BHP 5.00, “BHP Peer Review Program”; BHP 6.00,
   “BHP Psychiatrists and Psychologists Primary Source Verifications”; and BHP 9.00,
   “BHP Clinical Staff Reappointment,” that address hiring, credentialing, and privileging
   of health care staff. In addition, since October 1, 2007, all Space Medicine Division
   behavioral health providers have had their credentialing and privileging authority
   updated.




REPORT NO. IG-10-016                                                                              19
                                                                                         RESULTS



     Audit Evaluation. We did not review the credentialing and privileging authority for the
     behavioral health providers. However, we verified that these four procedures are in place
     to ensure that behavioral health providers’ licenses, training, and qualifications are
     authenticated prior to hiring; clinical privileges are determined and reassessed
     periodically; and other Johnson providers randomly review behavioral health providers’
     records each quarter. Therefore, NASA has taken actions to meet the intent of the
     recommendation.

Committee Recommendation 7bi(1). The Committee stated that there are no standard
operating procedures for the behavioral health clinic and no standard operating procedures
for the flow of information regarding astronaut care or how information is used. In addition,
the Committee stated that no written procedures exist to explain how mission readiness is
determined or how it is communicated to the clinic. The Committee recommended that
NASA develop written procedures in these areas.

     Management Actions. The Space Medicine Division used the existing flight medicine
     clinic’s procedures to develop 10 standard operating procedures for the behavioral health
     clinic that were issued on July 31, 2008. The specific procedures are “BHP Provider
     Rules and Regulations”; BHP 1.00, “BHP Documentation Standards”; BHP 2.00,
     “BHP Initial Appointment to Medical Staff”; BHP 3.00, “BHP Patient Access to Clinical
     Records”; BHP 4.00, “BHP Patient Rights and Responsibilities”; BHP 7.00,
     “BHP Privacy Act of 1974, as amended Operating Plan”; BHP 8.00, “BHP Release of
     Privacy Act Information”; BHP 9.00, “BHP Clinical Staff Reappointment”; BHP 10.00,
     “BHP Suspected Family Violence Management”; and BHP 11.00, “BHP Suspected
     Abuse and Neglect or Exploitation Management.”

     Audit Evaluation. We did not review medical records or day-to-day operations to
     ensure implementation of the standard operating procedures. However, we verified that
     these 10 procedures provide documented guidance for the behavioral health clinic’s
     operations as well as the flow of information regarding astronaut care and how
     information is used. In addition, BHP 1.00 documents how mission readiness is
     determined and communicated to the clinic. Therefore, NASA has taken corrective
     actions to meet the intent of the recommendation.

Committee Recommendation 7di. The Committee found inconsistent attendance at
Johnson’s Aerospace Medicine Board meetings by its members, which may result in
members making decisions without considering all applicable information. Therefore, the
Committee recommended that NASA restructure Board membership to ensure depth of
experience and consistent attendance.

     Management Actions. During the Committee’s review, the only NASA guidance
     applicable to Board operations was NASA Charter 1000-12, “NASA Medical Policy
     Board and Aerospace Medicine Board,” July 25, 2007. NASA Charter 1000-12 stated
     that the Board, a clinical and implementation body at Johnson for addressing crew
     medical qualifications, was composed of five flight surgeons (a chair and four members),



20                                                                         REPORT NO. IG-10-016
RESULTS



  with one having an aerospace medicine certification. Under the charter, the chair and
  three members constituted a meeting quorum.

  To address the Committee recommendation, the Space Medicine Division Chief
  developed “Johnson’s Aerospace Medicine Board Policies and Procedures Manual,”
  which outlines the process for ensuring that astronaut program applicants and astronauts
  are medically fit for assigned training and flight duties, referred to as fitness for duty.
  The Manual defines the Board’s authority, responsibilities, membership, meeting
  quorum, reporting, decision making, and waiver requirements. Board membership now
  consists of a chair, alternative chair, an executive secretary, and four additional members
  for a total of seven members. At least two of the seven members must have an aerospace
  medicine certification and all seven must attend every Board meeting or send a
  replacement. All members in attendance have input on agenda issues; however, the chair
  makes the final determination on all actions. The chair implemented the changes to the
  Board’s organization and attendance, as stated in the Manual, on December 17, 2009.

  In addition, the Chief Health and Medical Officer revised NASA Charter 1000-12 to
  ensure the requirements in the Manual and charter did not conflict. The Chief Health and
  Medical Officer made changes to the charter related to Board operations and issued the
  revision, Charter 1000-26, “NASA Medical Policy Board and Aerospace Medicine
  Board,” on December 15, 2009.

  Audit Evaluation. We reviewed and compared the old policy to the revised NASA
  Charter and Johnson’s policies and procedures manual. In addition, we compared the
  new and revised documents. Both documents addressed the Board membership’s
  restructuring, expertise required, and meeting attendance rules. We also confirmed that
  at least two of the current members had certifications in aerospace medicine and that four
  physicians were appointed as members and a permanent alternative chair was designated.
  Therefore, NASA implemented actions that met the intent of the recommendation.

Committee Recommendation 7ei(1). The Committee stated that the astronauts’ concern
about the protection of their privacy prevents effective communication regarding patient
status between behavioral health and other medical providers and limits the ability of the
flight surgeons to appropriately assess an astronaut’s medical eligibility. The Committee
recommended open and regular communication between flight surgeons and behavioral
health officials. While appropriate confidentiality must be maintained, the Committee stated
that collaboration between all health care providers must take place to ensure the highest
quality of care, optimum mission support, and consistent astronaut performance.

  Management Actions. The Space Medicine Division Chief found that the behavioral
  health clinic lacked operational procedures; therefore, his office issued five BHP
  procedural documents on July 31, 2008, to address privacy, confidentiality, and patient
  and provider rights requirements. Specifically, “BHP Provider Rules and Regulations”
  requires that behavioral health providers complete a medical record for all visits or
  encounters to improve the continuity of care provided by the medical and behavioral
  health providers. In addition, BHP 3.00, BHP 4.00, BHP 7.00, and BHP 8.00 address


REPORT NO. IG-10-016                                                                            21
                                                                                           RESULTS



     patient rights to (1) have an explanation of the diagnosis and treatment plan, (2) process a
     complaint regarding their care, (3) appeal a behavioral health decision, (4) have their
     medical records safeguarded from those without a need to review, and (5) obtain their
     medical records. Additionally, the behavioral health clinic and the five medical health
     clinics were reorganized under the Clinical Services Branch (within the Space Medicine
     Division) to provide consistent management and improved communications between
     providers. Branch personnel attend monthly meetings where operations and policies are
     discussed. In addition, the Space Medicine Division Chief stated that medical and
     behavioral health providers meet as needed to discuss specific patient information that is
     pertinent for patient care or NASA’s mission (see the discussion of Recommendation 6fi,
     page 18).

     Audit Evaluation. We did not review astronaut medical records to ensure
     implementation of the five BHP procedural documents. However, we verified that the
     Space Medicine Division Chief developed behavioral health clinic procedures that
     address patient privacy, provider’s roles, and the completion of medical records. We
     reviewed the Space Medicine Division’s Quality Committee’s meeting minutes, which
     documented attendance by both medical and behavioral health providers and discussions
     regarding various clinical issues. We believe that reorganizing the clinics into one branch
     should improve management oversight, consistency of operations for the clinics, and the
     ability of the medical and behavioral health providers to share pertinent patient
     information that would enhance quality of care and optimize mission support. Therefore,
     NASA has taken actions to meet the intent of the recommendation.

Committee Recommendation 9ai. The Committee recommended that NASA establish and
enforce a formal, written astronaut code of conduct.

     Management Action. In response to the Committee’s recommendation, the Astronaut
     Corps developed a code of conduct: “Astronaut Code of Professional Responsibility.”
     The code was posted on the Home Page of the Astronaut Office’s Web site on
     February 25, 2008, and is displayed in meeting areas throughout the office space of the
     Flight Crew Operations Directorate. The Astronaut Office Chief also conducted a
     briefing with the astronauts in January 2008 to discuss the Astronaut Code of
     Professional Responsibility.

     Audit Evaluation. We reviewed the code of conduct and verified that it is on the
     Astronaut Office’s Web site and displayed throughout the Flight Crew Operations
     Directorate office space. Therefore, NASA implemented actions that met the intent of
     the recommendation.

Committee Recommendation 11ai. The Committee expressed a need to identify and share
human factors concerns or issues among all organizations involved in astronaut activities.
Human factors are personal and professional circumstances, such as low proficiency or
stressors related to a medical condition, psychological or social adjustment, or professional
problems, which may interfere with an individual’s ability to aviate effectively. The
Committee recommended that NASA create a human factors council, patterned after the


22                                                                           REPORT NO. IG-10-016
RESULTS



Navy’s model, to identify and mitigate astronaut human factors concerns. This council
could bring together the multidisciplinary representation from all organizations involved in
astronaut activities and enhance leadership’s knowledge of how an astronaut is functioning
in a variety of settings.

   Management Actions. The Flight Crew Operations Directorate Assistant Director said
   that it uses Johnson’s Astronaut Evaluation Board to address human factors issues. This
   Board was established in April 2000 to assist Flight Crew Operations Directorate
   management in providing competent and technically proficient astronauts who are ready
   for mission assignment. The Astronaut Office reviewed the Navy’s human factors
   council model as suggested by the Committee. In addition, the Flight Crew Operations
   Directorate examined incorporating the model into all crewmember evaluations and
   operations within the Directorate and has an effort underway to incorporate the model
   into normal operations within other Flight Crew Operations Directorate divisions, as
   appropriate.

   In addition, behavioral, conduct, and other personal issues are addressed by the Astronaut
   Office Chief and the Flight Crew Operations Directorate Director. Astronaut medical
   issues affecting flight status are addressed during biweekly meetings between the Space
   Medicine Division Chief and the Astronaut Office Chief. The Flight Crew Operations
   Directorate also performs a Crew Resource Management Review to summarize the
   current state of crew resource management training across the aviation community. This
   includes a review of NASA’s status compared to the Navy, Air Force, and Continental
   Airlines with regard to training. Based on the review, the Flight Crew Operations
   Directorate developed a Crew Resource Management Implementation Plan for
   developing standards and simulations.

   Audit Evaluation. We obtained a copy of the policy and procedures document for the
   Navy’s human factors council, 3 which provides a formal process for communicating
   human factors issues to the commanding officer. The Navy’s Human Factors Board is
   convened whenever a crewmember’s or pilot’s ability to perform flight duties safely is in
   question. The Navy Board provides an individual plan of action to mitigate identified
   problems and reintegrate the individual to full performance of assigned duties. The
   commanding officer can then use the information for risk assessment and subsequent
   decisions regarding safety of flight issues.

   We determined that the Navy Board operates similarly to the Astronaut Evaluation
   Board. Specifically, Johnson’s Astronaut Evaluation Board determines the flight status
   of each astronaut as eligible, ineligible, or conditionally eligible; decides upon corrective
   action, if necessary; and passes recommendations of flight status and corrective actions to
   the Astronaut Office Chief for final disposition. The Astronaut Office Chief or the Flight
   Crew Operations Directorate Director may convene an Astronaut Evaluation Board at
   any time to review cases. In addition, an Astronaut Evaluation Board will normally
   3
       “Human Factors Council and Human Factors Board Policy and Procedures,” available online at
       https://www.netc.navy.mil/nascweb/sas/files/5420-2.pdf (accessed May 14, 2010).



REPORT NO. IG-10-016                                                                                23
                                                                                           RESULTS



     convene to review astronauts completing flight assignments and astronaut candidate
     training or other astronauts recommended for review by their branch chief. Because the
     purpose of Johnson’s Astronaut Evaluation Board is similar to the Navy Board, we
     concluded that NASA met the intent of the recommendation even though the Flight Crew
     Operations Directorate did not change its processes.

Committee Recommendation 11bi. The Committee recommended that NASA ensure that
the Astronaut Office is structurally and functionally organized to provide enduring
supervisory relationships that extend over years and are not limited to technical or mission
assignments. Supervisors should be senior astronauts, and each should have a manageable
number of astronauts to supervise. These supervisors should report to the Astronaut Office
Chief.

     Management Actions. Flight Crew Operations Directorate management stated that the
     current structure of the Astronaut Office is optimized to provide quality supervisory
     relationships while meeting mission requirements of the Space Shuttle and ISS programs.
     The Astronaut Office is organized into branches by technical and operational areas of
     expertise with experienced astronauts as branch chiefs. The branch chiefs are not formal
     supervisory positions in the NASA human resources system due to the astronaut mix
     (civilian, military, and international) and the rotation between technical and flight
     assignments that are expected during an astronaut’s career. In the traditional role, formal
     supervisors usually stay in their positions for several years. Designating astronauts in
     supervisory positions limits an astronaut’s ability to receive future flight assignments. In
     addition, military astronauts cannot be permanently placed in a position that is not
     actively involved in training for flight missions. The branch chiefs are rotated every
     2 years to assist the Flight Crew Operations Directorate in training the astronauts for
     leadership positions. To ensure continuity, the Flight Crew Operations Directorate
     maintains a civil service chief engineer’s position in each branch.

     Audit Evaluation. We believe that Johnson management’s decision to have
     nonsupervisory astronaut branch chiefs is justified, because permanently assigning
     astronauts to supervisory positions would limit an astronaut’s availability to train for
     future missions. In addition, we agree that necessary continuity can be provided through
     a chief engineer’s position. Therefore, we concluded that NASA met the intent of the
     recommendation even though the Flight Crew Operations Directorate did not change the
     management structure.

Committee Recommendation 11ci. The Committee recommended that Astronaut Office
supervisors be trained in the same or similar manner as other NASA supervisors, with added
training and support for issues specific to astronaut functions.

     Management Actions. The Flight Crew Operations Directorate reviewed the training
     completed by each Astronaut Office supervisor and determined whether additional
     training was needed on a case-by-case basis. The Flight Crew Operations Directorate had
     the “Human Resource Management for Leaders in the Flight Crew Operations
     Directorate” course developed based on an existing Johnson human resources


24                                                                           REPORT NO. IG-10-016
RESULTS



   management class offered to supervisors. This course was offered on May 7, 2007. The
   Flight Crew Operations Directorate Assistant Director stated that additional training of
   the leadership team will be provided as needed and new astronaut supervisors will be
   given appropriate leadership and management training.

   Audit Evaluation. We verified that leadership and communication training courses were
   provided to astronauts, including those in supervisory and nonsupervisory positions.
   Therefore, NASA implemented actions that met the intent of the recommendation.

Committee Recommendation 11di. The Committee recommended that NASA ensure that
all astronauts undergo comprehensive annual and mid-year evaluations by line supervisors
that integrate all available work-related information in addition to task-specific technical
assignment evaluations.

   Management Actions. NPR 3430.1C, “Employee Performance Communication
   System,” May 1, 2007, requires that performance planning discussions, mid-term, and
   year-end appraisals be conducted for all employees, including astronauts. The Flight
   Crew Operations Directorate branch chiefs have face-to-face performance discussions
   with astronauts in their respective branch, and the Astronaut Office Chief is responsible
   for ensuring the discussions have occurred.

   The Flight Crew Operations Directorate surveyed the Astronaut Corps in January 2008
   and found that the civilian astronauts were satisfied with the performance evaluations and
   feedback received; however, the military astronauts wanted more performance feedback
   from the Astronaut Office. The Astronaut Office Chief stated that he subsequently
   implemented the same performance feedback process for the military astronauts;
   however, the formal performance evaluation is not completed by the Astronaut Office,
   but rather the military.

   Audit Evaluation. We did not review performance records to ensure that Flight Crew
   Operations Directorate supervisors conducted mid-year and year-end appraisals.
   However, we reviewed NASA’s process for astronaut evaluations and verified that the
   Astronaut Office Chief requires comprehensive annual and mid-year evaluations. In
   addition, NASA developed a task-specific assessment tool, the Astronaut Personal
   Feedback form, to address the recommendation. Therefore, NASA has taken actions to
   meet the intent of the recommendation.

Verbal Recommendation. During congressional testimony, the Committee Chair
recommended that NASA conduct a thorough, anonymous survey on the relevant issues in
the Committee’s report.

   Management Actions. The Flight Crew Operations Directorate management used
   NASA and academic specialists to develop, conduct, and analyze results of a survey of
   Astronaut Office personnel and flight surgeons in January 2008. The survey focused on
   four areas: the relationship between astronauts and flight surgeons; raising and
   responding to issues of flight safety and crew suitability for flight; astronaut


REPORT NO. IG-10-016                                                                            25
                                                                                          RESULTS



     understanding of performance expectations, crew assignments, and space flight alcohol
     use policies and procedures; and astronaut understanding of how to report a flight safety
     risk due to alcohol use on launch day. NASA collected data anonymously from flight
     surgeons and astronauts to determine whether current policies and procedures should be
     changed. Survey results identified organizational strengths, such as the ability to raise
     safety concerns to managers, as well as areas for improvement related to astronaut
     performance evaluations and transparency of crew selection.

     Audit Evaluation. We verified that NASA conducted a survey of Astronaut Office
     personnel and flight surgeons. We reviewed the survey results to identify whether the
     survey results affected any of the Committee recommendations and determined that
     NASA made changes in policies and procedures in response to areas identified as
     needing improvement. We also verified that the Astronaut Office Chief briefed the
     astronauts on the survey results. Therefore, we concluded that NASA implemented
     actions that met the intent of the recommendation.


Five Safety and Mission Assurance Recommendations Addressed

     The report issued by the Chief of Safety and Mission Assurance, “Space Flight Safety
     Review (Alcohol Use in the Preflight Period),” August 28, 2007, included six
     recommendations. We determined that Johnson and Kennedy either took actions or had
     processes in place that satisfied the intent of five of the six recommendations related to
     procedures on launch day, alcohol use by crewmembers, and conduct of crewmembers on
     the ISS. NASA did not take action to address the remaining recommendation related to
     alcohol testing of its employees (see page 30).

First Recommendation. The Chief of Safety and Mission Assurance recommended that a
flight surgeon be located in the suit room during suit-up to allow more direct contact with
the crewmembers on launch day and to reduce the reliance on a suit technician (non-
clinician) to identify any last-minute medical issue.

     Management Actions. Both the Flight Crew Operations Directorate and Space
     Medicine Division management stated that NASA already had processes in place that
     address this recommendation. The Assistant Director of the Flight Crew Operations
     Directorate stated that the mission-assigned flight surgeon and astronaut supervisor are
     with the crew on launch day from wake-up in the crew quarters until launch. Further,
     NASA documents the suit technicians assisting the astronauts with their space suits
     during each launch via video recording and displays the video on NASA television.
     Since the suit-up room can only accommodate the crew and suit technicians, a flight
     surgeon cannot be located in the room. However, the flight surgeon and astronaut
     supervisor can view the activity from outside the room or on monitors that record the
     activity. The Space Medicine Division Chief added that a visual check of each astronaut
     is on the flight surgeon’s checklist.




26                                                                         REPORT NO. IG-10-016
RESULTS



  Audit Evaluation. We verified that the flight surgeon’s checklist includes a visual
  assessment of the astronauts up to 9 hours before launch. We found that CA-08-14,
  “Kennedy Astronaut Crew Quarters Policy,” April 14, 2008, states that the mission-
  assigned flight surgeon, astronaut supervisor, and other managers stay in Kennedy’s
  astronaut crew quarters prior to launch. Therefore, NASA has met the intent of the
  recommendation, even though it does not intend to locate a flight surgeon in the suit
  room during suit-up.

Second Recommendation. The Chief of Safety and Mission Assurance recommended that
NASA expand the existing NASA policy, CB-91-111, “High/Medium Risk Activity Policy,”
June 1991, to include drinking to excess as one example of a high-risk activity.

  Management Action. The Flight Crew Operations Directorate Director revised the
  policy and issued CA-07-43, “High/Medium Risk Activity Policy,” on August 31, 2007,
  to state that astronauts should use good judgment and that even low-risk recreational
  activities, when combined with too much alcohol, can be a high risk that could affect the
  mission. The policy was distributed to all astronauts and Astronaut Office management
  and is posted on the Astronaut Office Web site.

  Audit Evaluation. We verified that the policy included the risk of drinking to excess
  and that the revised policy was distributed to the astronauts and available on the
  Astronaut Office Web site. Therefore, NASA implemented actions that met the intent of
  the recommendation.

Third Recommendation. The Office of Safety and Mission Assurance found that the
General Services Administration (GSA) had regulations governing alcohol use but that non-
GSA NASA facilities had no similar regulations. Therefore, the Chief of Safety and
Mission Assurance recommended that Johnson finalize its draft policy, “Alcohol Use in the
Astronaut Crew Quarters.” Further, once completed and approved by the Johnson Director,
this document should be filed with the highest-ranking law enforcement organization at the
Center.

  Management Actions. Johnson Policy Directive 8710.1, “Alcohol Consumption in the
  Astronaut Crew Quarters,” finalized on October 3, 2007, states that astronauts can use
  alcohol in the crew quarters when off duty and that any NASA employee in the crew
  quarters should act responsibly when using alcohol. In addition, the assigned supervisor
  is responsible for monitoring alcohol use within the crew quarters. The policy also states
  that persons violating this policy can be subject to disciplinary action. The directive was
  published in the NASA Online Directives Information System (NODIS) and on the
  Astronaut Office Web site. According to Johnson’s Protective Services Chief, once a
  directive is online, Johnson’s highest-ranking law enforcement official is responsible for
  complying with and enforcing the directive.

  Audit Evaluation. We determined that Johnson Policy Directive 8710.1 defines the
  responsibilities for crewmembers’ alcohol use while in the crew quarters and the fact that
  violating this policy can result in disciplinary action. We confirmed that the policy is


REPORT NO. IG-10-016                                                                            27
                                                                                                             RESULTS



     available to all Johnson employees from NODIS and through the Astronaut Office Web
     site. Therefore, NASA implemented actions that met the intent of the recommendation.

Fourth Recommendation. The Chief of Safety and Mission Assurance recommended that
Kennedy complete a policy document on alcohol use in the astronaut crew quarters and the
astronauts’ recreational activities at the beach house 4 similar to Johnson’s policy. Once
approved by the Kennedy Director, this document should be filed with the highest-ranking
law enforcement organization at Kennedy.

     Management Action. Kennedy NASA Policy Directive 1600.4, “Alcohol Consumption
     in the Astronaut Crew Quarters,” was revised on October 18, 2007, to mirror Johnson’s
     policy. The revised policy states that astronauts can use alcohol responsibly in crew
     quarters and the beach house when off duty, astronauts and employees should act
     responsibility when using alcohol, the supervisor should monitor the use of alcohol, and
     violating the policy can result in disciplinary action. The directive was published in
     NODIS and on the Astronaut Office Web site.

     Audit Evaluation. We determined that Kennedy NASA Policy Directive 1600.4 defines
     the responsibilities for alcohol use while in the crew quarters and the beach house and
     that violating this policy can result in disciplinary action. We verified that the policy was
     available to NASA employees and accessible from the Astronaut Office Web site. Based
     on the Johnson Protective Service’s Chief’s response to the previous recommendation,
     we determined that Kennedy’s highest-ranking law enforcement official would be
     responsible for enforcing the directive. Therefore, we concluded that NASA had
     implemented actions that met the intent of the recommendation.

Fifth Recommendation. The Office of Safety and Mission Assurance found that the ISS
Multilateral Crew Operations Panel (the Panel) had not developed the details of the
disciplinary policy as stated in the “Code of Conduct for the ISS Crew,” issued in September
2000. The Chief of Safety and Mission Assurance recommended that NASA work with the
Panel to assess and document the need for additional details in the disciplinary policy.

     Management Actions. The Panel is composed of representatives from ISS international
     partners, including the United States, Russia, Canada, Japan, and participating European
     countries who make international policy decisions for the ISS. The Flight Crew
     Operations Directorate Assistant Director stated that NASA provided its disciplinary
     policy to the Panel; however, all ISS partners must agree to the final policy. He added
     that NASA has input on the ISS disciplinary policy for crewmembers and can always
     take disciplinary actions against NASA crewmembers. Therefore, as an ISS partner and
     member of the Panel, NASA officials said they will continue to work toward finalizing a
     disciplinary policy for ISS crewmembers.



     4
         A Kennedy facility located on the beach but within the Center’s grounds that is used for training and
         business-related functions.



28                                                                                          REPORT NO. IG-10-016
RESULTS



  Audit Evaluation. We reviewed the Panel’s meeting minutes from October 2007
  through October 2008, which verified that the disciplinary policy is in development. We
  also reviewed NASA’s charts used to brief the Panel on NASA’s disciplinary policy and
  determined that NASA has worked with the Panel to finalize a disciplinary policy.
  Therefore, we determined that NASA took steps to meet the intent of the
  recommendation.




REPORT NO. IG-10-016                                                                        29
                                                                                          RESULTS




                                               NASA HAD NOT COMPLETED OR
                                                 TAKEN ACTIONS TO ADDRESS
                                                    TWO RECOMMENDATIONS

            We found that NASA had not addressed 2 of the 39 recommendations made by
            Johnson, the Committee, and the Office of Safety and Mission Assurance. First,
            NASA Headquarters had not issued a NASA-wide policy to test NASA astronauts
            and other employees for alcohol. Second, NASA had not addressed whether
            astronauts should be included in NASA’s Personnel Reliability Program, nor had
            NASA addressed the finding that NASA civil service and military astronauts are not
            required to report all illness, injuries, or medication use so that the responsible
            NASA entity can determine whether the astronauts are fit to perform their assigned
            duties.


NASA Had Not Addressed the Recommendation on Alcohol
 Testing

     In August 2007, the Chief of Safety and Mission Assurance reported to the NASA
     Deputy Administrator that NASA has the authority under Title 42, United States Code,
     Section 2473c (42 U.S.C. 2473c), “Drug and Alcohol Testing,” December 1991, to test
     civil service employees in safety-sensitive, security, or national security functions for
     alcohol. According to 42 U.S.C. 2473c, the testing program should provide for pre-
     employment, reasonable suspicion, random, and post-incident testing for use of alcohol
     or a controlled substance. The Office of Safety and Mission Assurance found that the
     NASA Administrator, when implementing this authority, had established a drug-testing
     program but not an alcohol-testing program. In “Space Flight Safety Review (Alcohol
     Use in the Preflight Period),” August 28, 2007, the Chief of Safety and Mission
     Assurance recommended that NASA evaluate the implications of implementing the
     authority to test employees, including astronauts, for alcohol and make a decision. The
     Chief of Safety and Mission Assurance added that post-mishap testing and testing based
     on reasonable suspicion would be prudent for all flight safety critical employees,
     including astronauts, but he did not specifically recommend that NASA take this action.

     The Office of Human Capital Management began drafting a policy addressing alcohol
     testing of NASA employees in the second quarter of FY 2008 in response to a
     recommendation issued to NASA in the Aerospace Safety Advisory Panel (Panel)
     Annual Report for 2006, dated June 19, 2007. This report was issued prior to the
     initiation of the Safety and Mission Assurance review. The Panel found that there was
     not a NASA-wide requirement for random drug and alcohol testing of contractors and
     recommended that NASA expand testing to contractors, as well as to employees. When
     we met with the Office of Human Capital Management in July 2009, they were unaware
     of the recommendation made by the Chief of Safety and Mission Assurance regarding


30                                                                         REPORT NO. IG-10-016
RESULTS



  alcohol testing. Based on our review of the proposed policy, we believe that the new
  policy will address the Chief of Safety and Mission Assurance’s recommendation.
  However, since the Office of Human Capital Management has not finalized the draft
  policy for issuance, the Safety and Mission Assurance review recommendation remains
  open.


NASA Had Not Taken Action to Ensure Astronauts Report All
 Health Care Issues

  The Committee found that NASA civil service and military astronauts were not required
  to report illness, injuries, or medication use unless the astronaut determines the
  information to be significant. The Committee stated that this practice is a major
  deviation from the military’s Personnel Reliability Program, where the military
  physician, who is qualified to make a determination as to whether an individual is fit for
  duty, must evaluate every episode of illness, injury, or medication. Therefore, the
  Committee recommended that NASA astronauts be included in NASA’s formal
  Personnel Reliability Program.

  According to Title 14 of the Code of Federal Regulations, Subpart 1214.5, “Mission
  Critical Space System Personnel Reliability Program,” December 1990, NASA’s
  Personnel Reliability Program is designed to ensure that civil service personnel assigned
  to mission-critical positions or duties meet the screening requirements for background
  checks. However, NASA’s Personnel Reliability Program did not require employees to
  provide information on their illnesses, injuries, or medications. Even though the NASA
  Office of Protective Services suspended NASA’s Personnel Reliability Program on June
  10, 2009, we determined that including astronauts within NASA’s Personnel Reliability
  Program would not have addressed the Committee’s finding that astronauts were not
  required to report illnesses and non-NASA care. The Assistant Director of the Flight
  Crew Operations Directorate and Johnson’s Space Medicine Division Chief concurred
  with our analysis.

  NASA requires that astronauts receive an annual physical examination from a NASA
  flight surgeon. During this examination, the astronaut is required to report all medical
  and behavioral health conditions and treatment provided by non-NASA providers.
  Moreover, the astronaut is required to sign a form certifying that the information
  provided is complete and accurate. However, an astronaut assigned to a flight mission
  could receive medical and behavioral health care services from providers not affiliated
  with NASA without NASA’s knowledge in the period between annual certifications.
  Therefore, to fully address the Committee’s finding, NASA should establish a
  requirement that astronauts, upon assignment to a mission, certify that all episodes of
  health care received from providers not affiliated with NASA have been reported and that
  they will continue to report such care until the mission is completed. We discussed this
  revised recommendation with the Assistant Director of the Flight Crew Operations
  Directorate and the Space Medicine Division Chief, who both agreed that this type of


REPORT NO. IG-10-016                                                                           31
                                                                                       RESULTS



     action would better address the Committee’s finding and could be implemented by
     NASA. As of April 2010, however, NASA had not taken actions to address the
     Committee’s finding. Therefore, the recommendation remains open.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

In order to close outstanding recommendations, we recommend the following:

Recommendation 1. The Assistant Administrator, Human Capital Management should
issue policy establishing a NASA-wide program to test employees, including astronauts, for
alcohol.

     Management’s Response. The Assistant Administrator for Human Capital Management
     nonconcurred with the recommendation. She stated that while an Agency-wide team has
     worked hard since late 2006 in response to the Panel recommendation, changes in
     Administration and the Agency’s senior leadership and subsequent changes in direction
     to the Agency’s mission and budget, as well as various new initiatives of the new
     Administration that significantly impact the incoming, current, and outgoing workforce,
     has prevented the current Administrator and Deputy Administrator from being briefed on
     the various legal issues and complexities relative to the establishment and
     implementation of a requirement to conduct alcohol testing of civil service employees.
     However, she stated that the Office of Safety and Mission Assurance, the Office of
     Human Capital Management, and the Office of General Counsel will work toward
     staffing a final Agency decision on alcohol testing of civil service employees.

     Evaluation of Management’s Response. In light of the Assistant Administrator’s
     pledge to reach a final Agency decision regarding testing NASA employees for alcohol,
     we are resolving the recommendation. We will close the recommendation when
     management issues a final decision on the matter.

Recommendation 2. Johnson’s Space Medicine Division Chief should develop and
implement a policy that requires newly assigned mission crewmembers to provide an update
on any medical and behavioral health conditions and treatment received since their last
annual examination. The policy should also require the crewmember to certify in writing
that (1) the information provided on the form is true and accurate, (2) every instance of
medical and behavioral health care received by non-NASA providers has been reported, and
(3) every medical and behavioral health care condition and treatment received from non-
NASA providers will be reported until the mission is complete.

     Management’s Response. The Assistant Administrator for Human Capital Management
     concurred with the intent of the recommendation. She stated that having astronauts sign
     an agreement upon assignment to a mission does not satisfy the intent of the Committee’s
     original recommendation, as astronauts are assigned years before flight, not between the



32                                                                       REPORT NO. IG-10-016
RESULTS



  annual physical and the actual mission. The astronauts currently sign a standard form
  (SF-93, Report of Medical History) during their annual physical. The SF-93 contains a
  certification that the information provided is true and complete to the best of the signor’s
  knowledge. In addition to the SF-93, the Space Medicine Division and Astronaut Office
  have added a statement to the annual family history form that states: “I understand that I
  am required to report all medical and behavioral health care received outside of NASA in
  the interim period between annual physicals to the flight Medicine Clinic or Behavioral
  Health Clinic as soon as possible.”

  Evaluation of Management’s Response. We obtained and reviewed the revised annual
  family history form. Management’s actions are responsive to the recommendation.
  Accordingly, the recommendation is closed.




REPORT NO. IG-10-016                                                                             33
                                                                                          RESULTS




                                             NASA WAS UNABLE TO ADDRESS
                                                   ONE RECOMMENDATION

            NASA was unable to address one Committee recommendation concerning
            psychological testing evaluations. The Committee recommended that NASA fully
            integrate behavioral health information derived from psychological testing
            evaluations into the final selection process of astronaut candidates if the information
            is found to be useful. Although NASA hired nine astronaut candidates in May 2009
            using psychological testing evaluations in their selection, NASA cannot yet
            determine whether the behavioral health information was helpful. Specifically, it can
            take up to 8 years from the time NASA hires an astronaut candidate to the time the
            astronaut returns from his or her first long-duration mission. Therefore, to determine
            whether the behavioral health information collected during the hiring process was
            useful, NASA will need to observe the performance of the new astronauts for a
            period of time greater than the year that has elapsed since their hiring.


Committee Recommendation

     The Committee found that while psychological testing evaluation is conducted during the
     hiring of astronauts and is intended to identify applicants who can adapt most readily and
     perform effectively in the extreme environment of space flight, this information is rarely
     and inconsistently used in the hiring of astronauts. Further, details of methods, criteria
     used, and optimal performance data for psychological testing either do not exist or were
     not made available to the Committee for review. Therefore, the Committee
     recommended that NASA make the use of this information in the astronaut hiring process
     (see Recommendation 1ci, page 5).

     The Committee also recommended that if the behavioral health information is found to be
     useful, it should be fully integrated into the final selection of astronaut candidates.
     Although NASA addressed and implemented recommendations to use psychological
     testing evaluations during the hiring process for the May 2009 astronaut candidate class,
     NASA concluded that it cannot yet determine whether that information was useful.
     Specifically, the Space Medicine Division Chief stated that although the recommended
     psychological testing was implemented, it would be some period of years before NASA
     will know whether the testing was successful or whether changes are needed. NASA
     officials said it can take up to 8 years from the time NASA hires an astronaut candidate to
     the time the astronaut returns from his or her first long-duration mission. The officials
     said that they will measure the outcomes from the data collected in the years ahead.
     Further, the Space Medicine Deputy Chief stated that progress made toward
     implementing this recommendation would be included in the reviews performed by the
     Office of the Chief Health and Medical Officer every 2 years.



34                                                                          REPORT NO. IG-10-016
RESULTS



  We reviewed the report of the most recent review, performed in May 2009. The report
  stated that those responsible for behavioral health were in full compliance with the tool
  used to determine implementation of the Committee’s recommendation. However, we
  found that the tool does not yet include a specific determination of whether behavioral
  health information used to identify applicants who can adapt most readily and perform
  effectively in the extreme environment of space flight was useful. Therefore, NASA
  needs additional time to assess its progress in implementing this recommendation, and we
  are not making a recommendation at this time.




REPORT NO. IG-10-016                                                                          35
APPENDIXES




                                                                        APPENDIX A


Scope and Methodology

  We performed this audit from February 2009 through May 2010 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objective. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  Scope Limitation. Our fieldwork was limited to the review of NASA’s actions to
  address the recommendations. Therefore, we did not attempt to validate the findings
  made by Johnson, the Committee, or the Office of Safety and Mission Assurance. In
  addition, verifying implementation of the recommendations in some instances would
  have required entering the astronauts’ preflight quarantined environment, reviewing
  documentation containing personally identifiable information, or reviewing medical
  records, which are subject to the privacy rules of the Health Insurance Portability and
  Accountability Act of 1996. Finally, we did not test the effectiveness of NASA’s actions
  taken to implement the recommendations.

  Work Performed. To identify the 39 recommendations, we reviewed congressional
  testimony and the three reports of the reviews performed by Johnson, the Committee, and
  the Office of Safety and Mission Assurance:

      •   “Johnson’s Internal Assessment of Medical Practices after Nowak Incident,” June
          2007.

      •   “NASA Astronaut Health Care System Review Committee February–June 2007
          Report to the Administrator,” July 16, 2007.

      •   “Space Flight Safety Review (Alcohol Use in the Preflight Period),”
          August 28, 2007.

  We performed fieldwork at NASA Headquarters and Johnson. We conducted interviews
  with managers and personnel located at Headquarters in the Office of the Chief Health
  and Medical Officer, the Office of Safety and Mission Assurance, the Office of Human
  Capital Management, and the Space Operations Mission Directorate. In addition, we
  conducted interviews at Johnson with Flight Crew Operations Directorate managers, the
  Director of the Space Life Sciences Directorate, Space Medicine Division managers and
  behavioral health professionals, and the Human Adaptation and Countermeasures
  Division manager. We analyzed Headquarters, Johnson, and Kennedy documentation to



REPORT NO. IG-10-016                                                                         37
                                                                                       APPENDIX A



     determine whether NASA had taken actions or had processes already in place that met
     the intent of the recommendations. Additional details on the work we performed are
     included in the finding discussions.

     Use of Computer-Processed Data. We did not use computer-processed data to perform
     this audit.


Review of Internal Controls

     Our review of internal controls consisted of a review of Headquarters, Johnson, and
     Kennedy policies and procedures that existed, were developed, or were revised as a result
     of the three reviews. We identified a need for additional controls related to an alcohol
     testing policy and the reporting of health care services provided to astronauts by
     providers not affiliated with NASA. See page 30 for a discussion of these issues.


Prior Coverage

     During the last 5 years, the NASA Office of Inspector General and the Government
     Accountability Office have not issued any reports of particular relevance to the subject of
     this report. The reports from the three NASA reviews are listed earlier in this appendix.




38                                                                          REPORT NO. IG-10-016
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-10-016                         39
              APPENDIX B




40   REPORT NO. IG-10-016
APPENDIX B




REPORT NO. IG-10-016   41
                                                                                 APPENDIX C




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Health and Medical Officer
     Assistant Administrator for Human Capital Management
     Director, Johnson Space Center
        Director, Space Life Sciences Directorate, Johnson Space Center
        Director, Flight Crew Operation Directorate, Johnson Space Center
        Chief, Space Medicine Division, Johnson Space Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Defense, State, and NASA Financial Management, Office of Financial
           Management and Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




42                                                                     REPORT NO. IG-10-016
Major Contributors to the Report:
   Mark Jenson, Director, Financial Management Directorate
   Nicole Frish, Project Manager, Space Operations Directorate
   Bobbie Wells, Auditor, Mission Support Directorate
   Lynette Westfall, Auditor, Mission Support Directorate




REPORT NO. IG-10-016                                             43
                                                                                           JULY 6, 2010
                                                                        REPORT No. IG-10-016




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY10/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations
and Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
